No.

IN THE
SUPREME COURT OF THE UNITED STATES

In re BO ZOU
(Your Name)

— PETITIONER

VS.
LINDE ENGINEERING NORTH AMERICA. INC— RESPONDENT(S)
PROOF OF SERVICE
BO ZOU _________________ , do swear or declare that on this date,
March 22
, 2021 , as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF PROHIBITION on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:
Jonathan G. Rector. 2001 Ross Avenue. Suite 1500. Lock Box 116. Dallas. TX 75201

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

March 22

,2021

RECEIVED
1 2021

No.

IN THE
SUPREME COURT OF THE UNITED STATES

In re BO ZOU
(Your Name)

— PETITIONER

VS.
LINDE ENGINEERING NORTH AMERICA, INC. _ RESPONDENTS)
PROOF OF SERVICE
BO ZOU _________________ , do swear or declare that on this date,
March 22
, 202JL, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF PROHIBITION on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:
Hon. Jodi F. Jayne
US District Court for the Northern District of Oklahoma
333 W 4th Street, #411, Tulsa, OK 74103
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

March 22

, 202L

(Signature)

